              The Internal Revenue Service Has Appropriate
               Processes to Accept Modernization Program
                        Software From Developers

                                  February 2005

                       Reference Number: 2005-20-028




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    February 15, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                         Gordon C. Milbourn III
                                    Assistant Inspector General for Audit
                                    (Small Business and Corporate Programs)

      SUBJECT:                      Final Audit Report - The Internal Revenue Service Has
                                    Appropriate Processes to Accept Modernization Program
                                    Software From Developers (Audit # 200420041)


      This report presents the results of our review of the delivery of contractor-developed
      source code material1 for the Internal Revenue Service’s (IRS) modernization programs.
      The overall objective of this review was to determine whether the IRS has access to the
      source code material necessary to operate and maintain its modernization programs.
      This review addresses concerns presented to the Treasury Inspector General for Tax
      Administration by IRS personnel during prior audits.
      In summary, the IRS Modernization and Information Technology Services (MITS)
      organization has appropriate processes in place to accept modernization project source
      code material from developers. The software development task orders we reviewed
      and the PRIME2 contract incorporate the Federal Acquisition Regulation (FAR),3
      contract provisions, and escrow agreements designed to protect the IRS’ interest in
      modernization source code material. The MITS organization has obtained or has
      access to source code material for modernization projects currently in operation.
      Procedures are also in place to ensure the timely delivery of source code material for

      1
        Source code material means source code and source code listings, provided in computer-sensible form and on
      media capable of being used as input to a system for compilation; related documentation; and any commentary
      necessary for a software engineer to understand the source code, all indexed and organized by the contractor for ease
      of use.
      2
        The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
      companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
      information technology.
      3
        48 C.F.R. pt 1-53 (2002). The FAR is an organized publication of uniform policies and procedures used for
      acquisition by all Federal Government executive agencies.
                                                       2

current and future modernization project releases. In addition, the IRS’ Development
Integration and Test Environment (DITE)4 has access to modernization source code
material controlled by the PRIME contractor.
Management’s Response: The Chief Information Officer agreed with the audit finding
and expressed appreciation that the audit confirmed the MITS organization has
appropriate processes in place to accept modernization project source code material
from developers. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
finding. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




4
 The DITE provides a software development facility to build modernization project applications and enables
comprehensive integration and testing for multiple projects.
              The Internal Revenue Service Has Appropriate Processes to Accept
                           Modernization Software From Developers




                                             Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service’s Rights to Modernization
Source Code Material Are Protected......................................................... Page 2
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Selected Federal Acquisition Regulation
Clauses Related to Source Code Material Ownership .............................. Page 11
Appendix V – Management’s Response to the Draft Report ..................... Page 12
             The Internal Revenue Service Has Appropriate Processes to Accept
                          Modernization Software From Developers

                                   The Business Systems Modernization (BSM) program is a
Background
                                   complex effort to modernize the Internal Revenue Service’s
                                   (IRS) technology and related business processes. According
                                   to the IRS, this effort will involve integrating thousands of
                                   hardware and software components. It is estimated this
                                   effort will last up to 15 years and cost $8 billion.
                                   To facilitate the success of its modernization efforts, the IRS
                                   hired the Computer Sciences Corporation (CSC) as the
                                   PRIME contractor1 and integrator for the BSM program and
                                   created the BSM Office (BSMO) to guide and oversee the
                                   work of the PRIME contractor. Additional contractors have
                                   been hired to supplement the design and development of
                                   modernization projects.
                                   During the development of a system, programmers create
                                   the applications by writing programming statements and
                                   instructions. These statements and instructions are referred
                                   to as source code. Source code is what a programmer
                                   writes, but it is not directly executable by the computer. It
                                   must be converted into machine language, or object code, by
                                   compilers.2 The object code file contains a sequence of
                                   instructions that the computer can understand, but that is
                                   difficult for a human to read or modify. For this reason, the
                                   source code is the most permanent form of the program.
                                   When operating system or application software is purchased
                                   or received, it is usually in the form of compiled object code
                                   and the source code is not included.
                                   The PRIME contract specifies how the source code
                                   material3 is delivered to the IRS. Generally, software
                                   proposed for use and/or delivered in a sale of the software to
                                   more than one customer requires the use of an escrow


                                   1
                                     The PRIME contractor heads an alliance of leading technology
                                   companies brought together to assist with the IRS’ efforts to modernize
                                   its computer systems and related information technology.
                                   2
                                     A compiler is a special program that processes statements written in a
                                   particular programming language and turns them into machine language
                                   or “code” that a computer’s processor uses.
                                   3
                                     Source code material means source code and source code listings,
                                   provided in computer-sensible form and on media capable of being used
                                   as input to a system for compilation; related documentation; and any
                                   commentary necessary for a software engineer to understand the source
                                   code, all indexed and organized by the contractor for ease of use.
                                                                                                   Page 1
            The Internal Revenue Service Has Appropriate Processes to Accept
                         Modernization Software From Developers

                                  agent.4 Commercial off-the-shelf (COTS) software with
                                  licensing agreements is a good example of this type of
                                  software. On the other hand, software that is delivered
                                  under a specific task order contract to one user, such as the
                                  IRS, requires delivery of the source code material after
                                  completion of the project’s deployment.
                                  Access to source code allows for error correction,
                                  modifications, and enhancements of the software. Further,
                                  source code access allows the customer to enhance software
                                  independently of the developer if the software developer
                                  goes out of business or is otherwise unable to meet its
                                  obligations.
                                  This review was performed at the IRS Modernization and
                                  Information Technology Services (MITS) organization
                                  facilities in New Carrollton, Maryland, and the Enterprise
                                  Computing Center5 in Martinsburg, West Virginia, during
                                  the period September through December 2004. The audit
                                  was conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The MITS organization has appropriate processes in place
The Internal Revenue Service’s
                                  to accept modernization project source code material from
Rights to Modernization Source
                                  developers. The software development task orders we
Code Material Are Protected
                                  reviewed (see Appendix I for specific task orders) and the
                                  PRIME contract incorporate the Federal Acquisition
                                  Regulation (FAR),6 contract provisions, and escrow
                                  agreements designed to protect the IRS’ interest in
                                  modernization source code material. The MITS
                                  organization has obtained or has access to source code
                                  material for modernization projects currently in operation.
                                  Procedures are also in place to ensure the timely delivery of


                                  4
                                    The escrow agent will be responsible for the safekeeping of the source
                                  code and will release the source code to the end-customers if the
                                  conditions in the source code deposit agreement arise.
                                  5
                                    IRS Computing Centers support tax processing and information
                                  management through a data processing and telecommunications
                                  infrastructure.
                                  6
                                    48 C.F.R. pt 1-53 (2002). The FAR is an organized publication of
                                  uniform policies and procedures used for acquisition by all Federal
                                  Government executive agencies.
                                                                                                   Page 2
The Internal Revenue Service Has Appropriate Processes to Accept
             Modernization Software From Developers

                      source code material for current and future modernization
                      project releases. In addition, the IRS’ Development
                      Integration and Test Environment (DITE)7 has access to
                      modernization source code material controlled by the
                      PRIME contractor.
                      Software development task orders and the PRIME
                      contract incorporate the FAR provisions and escrow
                      agreements designed to protect the IRS’ interest in
                      modernization source code material
                      Representatives from the IRS and the CSC signed the
                      PRIME contract in December 1998. The PRIME contract
                      provides the legal framework for modernizing IRS computer
                      systems. This contract incorporates FAR provisions for
                      guidance in the acquisition of products and services.
                      For example, FAR Clause 52.227-14, Rights in Data, is
                      included in the PRIME contract and entitles the IRS to
                      unlimited rights to “data” first produced in the performance
                      of the contract. Computer programs, including source code
                      material, qualify as “data” under the PRIME contract. Thus,
                      when software is delivered to the IRS, the PRIME contract
                      directs the software developer to turn over all associated
                      source code material. This clause covers software produced
                      by the PRIME contractor and delivered exclusively to
                      the IRS.
                      For software that is used by more than one customer, such
                      as COTS software with licensing agreements, the PRIME
                      contract requires the use of an escrow agreement. A source
                      code escrow agreement allows the IRS to obtain access to
                      the software’s source code material under certain
                      circumstances, such as if the PRIME contractor goes out of
                      business or fails to make required modifications to the
                      software.




                      7
                        The DITE provides a software development facility to build
                      modernization project applications and enables comprehensive
                      integration and testing for multiple projects.
                                                                                     Page 3
The Internal Revenue Service Has Appropriate Processes to Accept
             Modernization Software From Developers

                      Finally, the PRIME contract contains FAR termination
                      provisions8 that are designed to protect the IRS. The
                      termination provisions require the software developer to
                      deliver or put into escrow all completed or partially
                      completed source code material.
                      Similarly, modernization projects using software developers
                      other than the PRIME contractor either incorporate FAR
                      provisions for guidance in the acquisition of products and
                      services or include specific instruction for migrating the
                      source code to the IRS. See Appendix IV for a list of FAR
                      provisions applicable to ownership of source code material.
                      The MITS organization has obtained or has access to
                      source code material for modernization projects
                      currently in operation
                      The IRS Product Assurance organization tests software
                      developed for the IRS’ operations. The Source Code and
                      Documentation Control (SCDC) Branch is part of the
                      Product Assurance organization. The SCDC Branch
                      provides independent source code control of the IRS’
                      critical systems. The SCDC Branch’s control
                      responsibilities include more than 100 current software
                      applications.
                      A function of the SCDC Branch is to perform the role of
                      gatekeeper for all IRS source code material. As the
                      gatekeeper, the SCDC Branch allows only successfully
                      tested software to operate on the IRS’ computer systems.
                      We verified the SCDC Branch, in performing its role of
                      gatekeeper, successfully obtained source code material for
                      the following modernization projects:
                      •   The Customer Communications Project (CCP) – The
                          CCP reduces call waiting time for taxpayers and reduces
                          the number of abandoned telephone calls.
                      •   The Internet Refund Fact of Filing (IRFOF) – The
                          IRFOF project provides instant refund status


                      8
                       FAR 52.249-2, Termination for Convenience of the Government
                      (Fixed-Price); FAR 52.249-6, Termination for Convenience or Default
                      (Cost-Reimbursement); FAR 52.249-8, Default (Fixed-Price Supply and
                      Service).
                                                                                 Page 4
The Internal Revenue Service Has Appropriate Processes to Accept
             Modernization Software From Developers

                          information for resolving refund problems to taxpayers
                          over the Internet.
                      •   The Internet Employer Identification Number (IEIN) –
                          The IEIN project allows small business to apply for and
                          receive Employer Identification Numbers over the
                          Internet.
                      •   The Custodial Accounting Project (CAP) – The CAP
                          provides an integrated link between tax administration
                          financial information and administrative financial
                          information.
                      •   The Modernized e-File (MeF) – The MeF project
                          provides electronic filing for large corporations and tax
                          exempt organizations.
                      Procedures are in place to ensure the timely delivery of
                      source code material for current and future
                      modernization project releases
                      In August 2003, the SCDC Branch developed its Transition
                      to Support Guide for projects residing on the modernized
                      infrastructure. This Guide focuses on projects currently
                      supported by modernization contractors with plans to
                      transition to the IRS. As contractor-developed projects
                      begin transitioning to the IRS, the SCDC Branch assumes
                      responsibility for all document control activities previously
                      performed by the contractors.
                      The SCDC Branch Transition to Support Guide is an
                      evolving document and, as such, is subject to change. As
                      the IRS further defines and develops its transition activities,
                      the SCDC Branch will review and update the Guide to
                      ensure it accurately describes these changes. The SCDC
                      Branch will release new versions of the Guide as necessary.
                      The DITE has access to modernization source code
                      material controlled by the PRIME contractor
                      The DITE is composed of a Virtual Development
                      Environment and an Enterprise Integration and Test
                      Environment. The DITE provides a software development
                      facility to build modernization project applications. It also
                      enables comprehensive integration and testing for multiple
                      modernization projects.

                                                                              Page 5
The Internal Revenue Service Has Appropriate Processes to Accept
             Modernization Software From Developers

                      Source code material for modernization projects under
                      development, with the exception of the CAP9 (which is
                      maintained by the SCDC Branch), is located within the
                      DITE. The DITE maintains only PRIME
                      contractor-developed source code material. Modernization
                      project examples include:
                      •   The Customer Account Data Engine (CADE) – The
                          CADE is an online modernized data infrastructure that
                          will house the IRS’ taxpayer account and return data for
                          more than 200 million individual and business
                          taxpayers.
                      •   e-Services – The e-Services project is a BSMO project
                          focused on revolutionizing the way taxpayers transact
                          and communicate with the IRS. This web-based project
                          will expand the existing third-party tools and data
                          collection processes.
                      •   The Integrated Financial System (IFS) – The IFS is a
                          management tool that will help the IRS better budget,
                          plan, track, report, and manage its finances. It is
                          designed to input, track, and report financial data.
                      •   The Security Technology Infrastructure Release (STIR)
                          – The STIR project is a customer-focused technical
                          infrastructure for secure telephony and electronic
                          interaction among employees, tax practitioners, and
                          taxpayers.
                      While modernization source code material may be
                      controlled by the PRIME contractor, it is readily accessible
                      by the DITE system administrators performing their daily
                      duties.
                      Management’s Response: The Chief Information Officer
                      agreed with the audit finding and expressed appreciation
                      that the audit confirmed the MITS organization has
                      appropriate processes in place to accept modernization
                      project source code material from developers.


                      9
                       The CAP is being developed by Northrop Grumman outside of the
                      PRIME contract.



                                                                                 Page 6
             The Internal Revenue Service Has Appropriate Processes to Accept
                          Modernization Software From Developers

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue (IRS) has
access to the source code material1 necessary to operate and maintain its modernization
programs. To accomplish this objective, we:
I.    Determined the applicable Federal Acquisition Regulation (FAR)2 clauses regarding the
      delivery of source code material to customers and assessed the impact to the IRS with the
      current modernization project contract provisions, including the PRIME3 contract
      provisions.
II.   Identified previous “lessons learned” experiences in obtaining source code material from
      contractors and vendors for IRS systems and applications within the Modernization and
      Information Technology Services (MITS) organization.
III. Determined the current procedures used by the MITS organization to obtain source code
     material.
IV. Determined whether modernization project task orders and other associated modernization
    contracts included sufficient detail requiring the contractors to deliver the source code
    material to the IRS. We also obtained documentation verifying the IRS’ control and access
    to source code material.
      A.     Reviewed project task orders and documentation verifying the IRS’ control and
             access to source code material relating to the following modernization projects.
             1. The Customer Communications Project (CCP) – The CCP reduces call waiting
                time for taxpayers and reduces the number of abandoned telephone calls.
             2. The Internet Refund Fact of Filing (IRFOF) – The IRFOF project provides instant
                refund status information for resolving refund problems to taxpayers over the
                Internet.




1
  Source code material means source code and source code listings, provided in computer-sensible form and on
media capable of being used as input to a system for compilation; related documentation; and any commentary
necessary for a software engineer to understand the source code, all indexed and organized by the contractor for ease
of use.
2
  48 C.F.R. pt 1-53 (2002). The FAR is an organized publication of uniform policies and procedures used for
acquisition by all Federal Government executive agencies.
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                            Page 7
             The Internal Revenue Service Has Appropriate Processes to Accept
                          Modernization Software From Developers

             3. The Custodial Accounting Project (CAP) – The CAP provides an integrated link
                between tax administration financial information and administrative financial
                information.
             4. The Customer Account Data Engine (CADE) – The CADE is an online
                modernized data infrastructure that will house the IRS’ taxpayer account and
                return data for more than 200 million individual and business taxpayers.
             5. e-Services – The e-Services project is a Business Systems Modernization Office
                project focused on revolutionizing the way taxpayers transact and communicate
                with the IRS. This web-based project will expand the existing third-party tools
                and data collection processes.
             6. The Integrated Financial System (IFS) – The IFS is a management tool that will
                help the IRS better budget, plan, track, report, and manage its finances. It is
                designed to input, track, and report financial data.
      B.     Reviewed the following associated Modernization program task orders requiring
             escrow agreements for commercial off-the-shelf software.
             1. SAP4 and RWD Technologies5 enterprise software licenses and maintenance.
             2. Vignette6 internet management enterprise software license and maintenance.
             3. PeopleSoft7 enterprise software license and maintenance.
             4. Sapiens8 Business Rules Authoring Environment and Assisted and Automated
                Sequencing tools for the CADE.




4
  SAP is an interenterprise software company and independent software supplier.
5
  RWD Technologies is a corporation that provides an integrated approach to business solutions in areas including
performance solutions, enterprise systems, and applied technology solutions.
6
  Vignette is a corporation that provides comprehensive applications to give customers the ability to deliver
enterprise web applications consisting of integrated information, composite applications, and business processes to
effectively meet business objectives.
7
  PeopleSoft is a provider of enterprise application software. PeopleSoft applications are built to enable integration
with third-party applications and legacy systems.
8
  Sapiens is a company which is adapting its rules language, eMerge, a technical rules syntax that is modeled after
actual business rules commonly employed in the business world. This enables developers to concentrate solely on
specifying standard logic while the rules-based engine automatically infers the nonstandard criteria.
                                                                                                              Page 8
           The Internal Revenue Service Has Appropriate Processes to Accept
                        Modernization Software From Developers

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Edward A. Neuwirth, Audit Manager
Bruce Polidori, Senior Auditor
Louis Zullo, Senior Auditor
Steve Gibson, Auditor




                                                                                         Page 9
           The Internal Revenue Service Has Appropriate Processes to Accept
                        Modernization Software From Developers

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Procurement OS:A:P
Director, Stakeholder Management Division OS:CIO:SM
Director, Business Systems Development OS:CIO:I:B
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Director, Business Systems Development OS:CIO:I:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 10
                 The Internal Revenue Service Has Appropriate Processes to Accept
                              Modernization Software From Developers

                                                                                        Appendix IV


                         Selected Federal Acquisition Regulation Clauses
                           Related to Source Code Material Ownership

Federal Acquisition Regulation (FAR)1 52.227-14, Rights in Data – This regulation provides
the Federal Government shall have unlimited rights in data first produced in the performance of a
contract. These rights also include data delivered under this contract that constitute manuals or
instructional and training material for computer installation, operation, or routine maintenance
and repair of items, components, or processes delivered or furnished for use under the contract.
FAR 52.249-2, Termination for Convenience of the Government (Fixed-Price) – This
regulation states the Federal Government may terminate performance of work under the contract
in whole or, from time to time, in part if the contracting officer determines a termination is in the
Federal Government’s interest. The contracting officer shall terminate by delivering to the
contractor a Notice of Termination specifying the extent of termination and the effective date.
After receipt of a Notice of Termination, and except as directed by the contracting officer, the
contractor shall immediately transfer title and deliver to the Federal Government the completed
or partially completed plans, drawings, information, and other property that, if the contract had
been completed, would be required to be furnished to the Federal Government.
FAR 52.249-6, Termination for Convenience or Default (Cost-Reimbursement) – This
regulation is similar to FAR 52.249-2, except these provisions pertain to Cost-Reimbursement
contracts and apply in cases of Termination for Convenience or Termination for Default. The
Federal Government may terminate performance of work under the contract in whole or in part if
(1) the contracting officer determines a termination is in the Federal Government’s interest
[convenience] or (2) the contractor fails to make progress in the work so as to endanger
performance [default].
FAR 52.249-8, Default (Fixed-Price Supply and Service) – This regulation states that if the
contract is terminated for default, the Federal Government may require the contractor to transfer
title and deliver to the Federal Government, as directed by the contracting officer, (1) completed
supplies and (2) partially completed supplies and materials, parts, tools, dies, jigs, fixtures, plans,
drawings, information, and contract rights (collectively referred to as “manufacturing materials”
in this clause) that the contractor has specifically produced or acquired for the terminated portion
of this contract. Upon direction of the contracting officer, the contractor shall also protect and
preserve property in its possession in which the Federal Government has an interest.




1
    48 C.F.R. pt 1-53 (2002).


                                                                                               Page 11
The Internal Revenue Service Has Appropriate Processes to Accept
             Modernization Software From Developers

                                                              Appendix V


        Management’s Response to the Draft Report




                                                                   Page 12
